U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 14, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: David Byron Babcock v. Kilolo Kijakazi, Acting Commissioner of Social
Security, No. 20-480
Dear Mr. Harris:
On October 13, 2021, this Court heard oral argument in the above-captioned case. This
letter is submitted to correct a statement made by counsel for the government at oral argument. In
response to a question, counsel for the government provided a partial number of National Guard
dual status technicians who could be impacted by the Court’s decision in this case—specifically,
the number of those who retired after 2004 and are receiving Civil Service Retirement System
(CSRS) payments or are eligible to retire and receive CSRS payments. Counsel inadvertently
stated that 53,000 technicians fell into that category. Tr. 51. The correct number is 5,300. We
apologize for that error.
I would appreciate it if you would circulate this letter to the Members of the Court.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

20-0480
BABCOCK, DAVID BRYON
KILOLO KIJAKAZI, COMMISSIONER OF SOCIAL
SECURITY

MELANIE LYNN BOSTWICK
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15TH STREET, NW
WASHINGTON, DC 20005
202-339-8483
MBOSTWICK@ORRICK.COM
NEAL KUMAR KATYAL
HOGAN LOVELLS US LLP
555 THIRTEENTH STREET, N.W.
WASHINGTON, DC 20004
202-637-5600
NEAL.KATYAL@HOGANLOVELLS.COM

VIA EMAIL

